Visa

®

credit card
agreement

Visa
credit card
agreement

01

Visa credit card agreement
Your use of the United Nations Federal Credit Union (UNFCU) Visa
credit card and convenience checks is governed by this agreement.
Therefore, you should read it thoroughly before you sign or use
the card or a convenience check. All transactions, fees, charges,
and payments are due in US dollars. Your UNFCU Visa credit
card and convenience checks may not be used for any illegal
transactions. This agreement is subject to change without notice
to you, except as otherwise provided by law.

Definitions
In this Visa credit card agreement, the word “agreement” refers
to this Visa credit card agreement, the credit card rates sheet, and
Fees and Service Charges, which constitute the contract applicable
to all transactions on your Visa account, even if the sales, cash
advance, or credit slips you sign contain different terms. The words
“you” or “your” mean each applicant to whom a UNFCU Visa
credit card is issued. The words “we,” “us,” and “ours” mean the
United Nations Federal Credit Union. The word “card” refers to the
UNFCU Visa credit card that was sent to you. “Account” refers to
your Visa credit card account with us, including but not limited
to your convenience checks.

Responsibility
This agreement becomes effective once you sign, activate, or
use your UNFCU Visa credit card and/or convenience check or
fail to return it within five business days. If you do not wish to
be bound by this agreement, do not use or activate the card.
Cut it in half, and return it to us immediately. Otherwise, this
agreement will be deemed to have been accepted by you.
If you do sign the card, you should not use it after the expiration
date printed on the face of the card. You should not use any
convenience check after the expiration date printed on the
check. Use of the account means that you agree to pay all
debts and finance charges arising from the use of the card and
convenience checks, and to be bound by all of the terms and
conditions of this agreement. For example, you are responsible
for all charges made by you, your spouse, minors using this
account, and any other authorized cardholders or users.

02

Visa credit card agreement

You are also responsible for any charges made by anyone
else to whom you have given the card. You and any person
who signed the application for the account, or who accepts,
signs, or uses the card, or uses the account in any way, will
be jointly and severally liable for payment. This means that
we can enforce the entire payment obligation or any part
thereof against any of you individually and/or as a group. This
agreement will bind and benefit both parties to it: you and us.
It will also bind both parties’ legal representatives, successors,
and assigns (your legal representatives are those who have a
legal right to act for you, your successors are those who take
your place, and your assigns are those to whom you transfer
your rights and duties). Please note that you are not permitted
to assign or transfer any rights under this agreement without
first obtaining our consent in writing. Any transfer without our
prior written consent is invalid.

Credit line
If we approve your application, we will establish a credit line (the
total of purchases and cash advances that you are permitted to
have outstanding on your account at any one time). We will notify
you of the amount upon card issuance. This does not create a
loan commitment on our part. You agree not to let the account
balance exceed this approved credit line. Each payment you
make on the account will restore your credit line by the amount
of the payment, which is applied to the principal. We reserve the
right to amend your credit line at any time. By giving you written
notice, we may reduce your credit line or revoke your card and
terminate this agreement. We may take these actions if you are
in default, if you exceed your credit limit, if your creditworthiness
changes adversely, or if you fail to comply with this agreement
in any way, upon your failure to make any loan payment when
due on any loan with UNFCU; if you have made or do make any
false or misleading statements in furnishing financial and other
information to UNFCU; or if any attachment, execution, or other
legal process is issued against any of your property. If you wish
to increase your credit line, you must submit an application to
us for approval. You may at any time terminate this agreement.
However, termination by either you or us does not affect your
obligation to pay the balance. Any card(s) we issue to you shall
remain our property, and you must recover and surrender all
cards to us upon termination of this agreement by either party.
You may not transfer loan balances to this account from other
accounts with us.

03

Renewal of card
For your protection, your Visa credit card is issued with an
expiration date. Upon expiration of your Visa credit card, if your
account is active and in good standing, we may automatically
issue you a renewal card. We may choose not to issue a renewal
card if your account is not in good standing or if UNFCU has
other grounds for termination pursuant to applicable law and this
agreement. Furthermore, UNFCU reserves the right to terminate
or not renew your credit card if there is excessive fraud or abuse
of your account privileges or if you fail to comply with the terms
of this agreement.

Monthly statement
We will send you a statement each month when there is an
existing balance or any activity on your account. The monthly
statement will show your previous balance of purchases and
cash advances. It will also show the current transactions on
your account, the remaining credit available under your credit
line, the new balance of purchases and cash advances, the total
new balance, the finance charge due to date, and the minimum
payment due. Every month, you must pay at least the minimum
payment due. You may pay the total amount you owe (total new
balance) or any portion of it, provided you pay us the minimum
payment due. The minimum payment will be either 1) 2.00%
of the total new balance or 2) $25.00, whichever is greater,
plus 3) any past due amount(s) shown on previous statement(s),
plus 4) any amount over the credit limit exceeding past due
amounts. From time to time, we may offer certain program
and/or promotions, which may reduce the required minimum
payment. You may at any time pay the total indebtedness of
this agreement. If at any time your total new balance exceeds
your credit line, you must immediately pay the excess. Your total
payment (including the minimum amount and any excess) will
be applied to the balance with the highest Annual Percentage
Rate (APR) first, then down to the balance with the lowest APR.
Refunds of excess credit balances will be posted to your UNFCU
savings account. If you obtain a refund, adjustment, or credit on
a purchase made with your card, you will receive a credit to your
Visa credit card account, not cash.

Grace period
Your grace period for the repayment of purchase balances
is 25 days. You have no grace period for cash advance balances,
convenience checks, or balance transfers. Balance transfers
are processed as cash advance transactions. Finance charges
accrue beginning on the cash advance transaction date.

04

Visa credit card agreement

Security interest and right of offset
In consideration for UNFCU issuing a Visa credit card to
you, you consent to our right to offset any account payment
delinquency with funds in any of your UNFCU accounts and
that UNFCU will have a security interest in any shares and
deposits in all joint and individual accounts that you and/or
any other person, who is jointly and severally liable under this
agreement, have with UNFCU now and in the future. This does
not restrict your rights vis-à-vis your accounts and is not a pledge
by you of the account. Any exercise of this right by us is not
an election of remedies. Shares and deposits in an Individual
Retirement Account (IRA) and any other account that would
lose special tax treatment under state or federal law if given as
security, are not subject to the security interest you have given
in your shares and deposits. Property given as security for any
other loan may secure all amounts you owe UNFCU now and in
the future.

International transactions
International transactions include any transaction that you
make in a foreign currency or that you make outside of the US
even if it is made in US dollars. Purchases and cash advances
made in non-US dollars will be billed in US dollars. Visa converts
non-US dollars into US dollars according to a wholesale market
rate or government mandated rate in effect on the transaction
posting date. Visa imposes an international service assessment
(ISA) fee, also known as a foreign transaction fee, on all
international transactions. This fee will appear on the billing
statement of any UNFCU credit card to which it applies.
Please visit www.unfcu.org/cards to see which cards incur a
foreign transaction fee and to access the latest rates. UNFCU
does not impose any additional fees of its own for international
transactions but reserves the right to do so in the future.

UNFCU Visa credit card convenience checks
Visa credit card convenience checks are a means to access
your Visa line of credit but are not considered Visa transactions.
Therefore, purchases and payments made using a convenience
check are not subject to the benefits described in the Visa Card
Guide to Benefits (including, but not limited to, price protection
and other chargeback protections afforded to Visa credit card
transactions). Likewise, if you have a dispute with a creditor and
pay the balance with a convenience check, you may lose certain
dispute rights. You or an authorized user may use UNFCU Visa
credit card convenience checks issued to you only in the form
we issue them, and only if they bear your or an authorized user’s
name and the account number that is on the card. UNFCU Visa
05

credit card convenience checks are processed as cash advance
transactions. Transactions will begin to accrue interest the date
that the transaction posts. There is no grace period for cash
advance transactions. To use a convenience check, you must
complete and sign it in the same way you would a regular
personal check. If the total amount you request exceeds your
credit line, we may either send full or partial payment to your
creditors in the order you provide them to us or we may send
you additional convenience checks, at our option. You cannot use
a convenience check to pay any amount you owe UNFCU or any
of its affiliates. We have no obligation to pay a convenience check
if you have breached any of the terms of this card agreement;
your account is past due, overlimit, or in default; your check posts
after the void date indicated on the check; your account was not
activated upon your receipt of your card; your right to use the
card has been revoked or terminated; or if the card is expired
or reported as lost or stolen. We will have no responsibility or
liability to you if we do not pay a convenience check for any of
those reasons, or if we pay post-dated convenience checks, or,
if by reason of payment of any post-dated convenience check,
(even if we are not obligated to pay for any of the reasons stated
above) a cash advance results. In the event we do not pay a
convenience check for the reasons stated above and the check
is returned, you will be assessed a returned convenience check
fee. Please refer to the Fees and Service Charges for further
information, available on www.unfcu.org, or by calling or writing
using the contact information at the end of this booklet. This fee
will be posted to your account and be subject to finance charges.
Paid convenience checks will not be returned to you with your
statement. Convenience checks cannot be used until your
account has been activated. Your use or retention of the card
and/or convenience checks indicates your acceptance and intent
to be bound by the terms and conditions of this agreement.

Authorizations
We are not responsible for the refusal by a merchant or financial
institution to honor your card or convenience checks. Except as
otherwise required by applicable law or regulation, merchandise
or services purchased or leased through use of your account on
a non-refundable basis at your discretion may not be disputed
for unsatisfactory performance. Although you may have credit
available, we may be unable to authorize credit for a particular
transaction due to operational difficulties or if we suspect fraud
or unlawful activity. If your account is over limit or delinquent, or
if you are in default under this agreement, authorizations of credit
for transactions may be declined.

06

Visa credit card agreement

Protecting your account
We take fraud prevention very seriously and have implemented
certain fraud detection systems to help protect your UNFCU
Visa credit card from fraudulent activity. This detection system
will monitor your card transactions and detect usage, which
differs from your ordinary spending patterns. If we detect
potential fraud, you may receive an inquiry from us regarding
the account. In certain circumstances, we may block the account
to investigate possible fraud. If we decide to block the account,
we will not be liable to you for any damages suffered because
of the blocking. This added fraud protection feature is provided at
no cost to you and does not affect the way your card transactions
are processed. This is a precautionary measure to protect both
you and us.

Default and early termination
You are in default if you fail to make any minimum payment by
the payment due date shown on your monthly statement. A late
payment fee will be assessed on your account each time you fail
to make the minimum monthly payment by the payment due
date. This fee will be posted to your account balance and be
subject to finance charges. Please refer to the Fees and Service
Charges for further information, available on www.unfcu.org, or by
calling or writing using the contact information at the end of this
booklet. You will also be in default if you provide false information
on your application, exceed your credit limit, fail to comply with any
term or condition of this agreement or any other agreement that
you make concerning your account, fail to provide us with updated
financial information if requested, if any government authority
takes action which UNFCU believes adversely affects your financial
condition or ability to repay, if you withdraw or transfer from your
share accounts any funds pledged under this agreement, or if you
file a bankruptcy petition, a bankruptcy petition is filed against you,
you make a general assignment for the benefit of creditors or if
any of the cardholders dies. If you are in default, use of the card
(which at all times remains our property) must end immediately,
and we may, at our option, demand immediate payment of the
entire amount you owe us. This amount will include any amounts
not yet billed to you and any finance charge or other fee earned
by us, without giving you notice. In any event, we may demand
immediate and complete payment at any time without cause,
unless otherwise provided by applicable law. In the event of
default, you are required to cut the card in half and return it to us.
To the extent permitted by law, you will also be required to pay our
collections expenses including court costs and reasonable attorney
fees. We can accept late or partial payments, or checks and

07

money orders, marked “paid in full,” or language having the same
intent, without losing any of our rights under this agreement.

Inactive accounts
We reserve the right to close your account if it has been inactive for
at least 120 days. This is to protect your account from fraudulent
use. We will advise you by letter prior to closing and may give you
the opportunity to re-activate your account.

Preauthorized charges
If you default, if your card, convenience check, or PIN is lost or
stolen or we change your account or account number for any
reason, we may suspend automatic charges on that account to
third party vendors of other goods or services. If preauthorized
charges are suspended, you must contact the third party vendor to
reinstate them. You are responsible for making direct payment
for such charges until you reinstate automatic charges.

Finance charges calculation
Finance charges are calculated by multiplying the average daily
balance by the monthly periodic rate as described in the section of
this agreement titled APR. This is known as the “average daily
balance” method. The average daily balance is determined by
dividing the sum of the closing daily balances for each day during
the billing cycle by the number of days in the billing cycle.
No finance charges will be incurred with respect to purchases or
other charges (except cash advances, convenience checks, and
balance transfers) during the billing cycle in which they are debited
from the account if the previous balance is zero or shows a credit
due to the member, or if the total amount credited during the
billing cycle, as shown on the billing statement, equals or exceeds
the previous balance. Finance charges will be calculated on the
total purchase balance unless full payment is received within the
grace period. Finance charges on cash advances, convenience
checks, and balance transfers accrue from the date the transaction
posts to the account. There is no grace period for cash advances,
convenience checks, or balance transfers.

08

Visa credit card agreement

Credit information
You agree that we may request consumer credit reports from
one or more credit reporting agencies when opening, renewing,
reviewing, or administering your account. You also authorize us
to exchange credit information concerning you or your account
with (and answer questions and requests from) others, such as
merchants and credit reporting agencies, concerning your credit
history with us.

Personal identification number
We will issue a personal identification number (PIN) to you.
This PIN will allow you to make cash withdrawals and purchases
at payment terminals compatible with chip and PIN credit cards.
Your PIN is your secret code. You agree not to disclose your PIN
to anyone and to notify us immediately if you believe your PIN has
been stolen.

Liability for unauthorized use
If your card(s), convenience check(s) or personal identification
number (PIN) is lost or stolen, or if you believe someone may be
using your account without your permission, you must notify
us immediately. You may contact us by writing to: UNFCU
Court Square Place, 24-01 44th Road, Long Island City, NY
11101, USA, or by calling us at +1 347-686-6000, or toll-free
within the US/Canada at 1-800-891-2471. We may terminate or
limit access to your account if you have notified us or we have
determined that your card, convenience checks and/or PIN may
have been lost or stolen, or that there may be unauthorized access
to your account. You may be liable if there is unauthorized use
before your notice to us. In general, your liability for unauthorized
use of your card before your notice to us will not exceed $50.00.
The $50.00 limit does not apply for convenience checks and cash
advances. You will not be liable for any unauthorized use of your
card that occurs after you notify us. If you fail to notify us within
60 days from the date a statement was first transmitted to you
that included an unauthorized charge, you may not be reimbursed
for unauthorized transactions that occurred. Failure to promptly
notify UNFCU of unauthorized use may also result in the closing
of your account. We may terminate or limit access to your account
if you have notified us or we have determined that your card,
convenience checks and/or PIN may have been lost or stolen, or
that there may be unauthorized access to your account.

09

Inquiries or questions
You may address any inquiries or questions that you have about
your account to UNFCU Court Square Place, 24-01 44th Road,
Long Island City, NY 11101, USA. Additionally, you can call
us at +1 347-686-6000 or toll-free within the US/Canada at
1-800-891-2471. Outside the US and Canada use one of the
toll-free numbers listed on www.unfcu.org/tollfree. If you
telephone us instead of writing, you may lose certain rights
the law gives you to dispute billing errors (see Your Billing
Rights section).

Additional payment information
Payments accompanied by a payment stub, received at
New York branches and payment made through Digital Banking,
Mondays through Fridays excluding UNFCU holidays, will be
posted on the day of receipt provided it is received by 17:00
Eastern Standard Time. Although payment made elsewhere
may not be posted on the day of receipt, it will be posted
within five business days thereafter. Cash payments may be
made at the branches only. For your security, please do not
mail in cash payments. Check payments should be mailed
with a payment stub to UNFCU Payment Processing Center
P.O. Box 9307 Des Moines, IA 50306-9307. Automatic payments
that cannot be processed due to insufficient funds in your
designated UNFCU savings or checking account will result in
an insufficient fund (NSF) fee, as listed on the UNFCU Fees and
Service Charges.

Verification of identity
Due to recently passed legislation to combat identity theft,
you may experience delays in receiving an additional and/
or replacement credit card if you recently changed your
address or even if postal mail we sent to you was returned as
undeliverable. In some cases, you will be asked to provide us
with additional information and documentation so that we can
verify your identity before issuing an additional or replacement
card. These measures are to protect you from identity theft.

How one section of this agreement
affects another
Any section of this agreement that becomes invalid or
unenforceable under any law, rule, or regulation of any federal,
state, or local government agency will not in any way affect
any other part of this agreement.

10

Visa credit card agreement

Delay in enforcing our rights
We can delay enforcing our rights under this agreement without
losing them.

Applicable law
The laws of the United States of America and the State of New
York apply to this agreement and to the use of your UNFCU
Visa credit card convenience checks, and your account.

Amendments
We may amend this agreement, from time to time without prior
notice to you, unless otherwise provided by applicable law or
regulation. If we notify you of a change you do not agree to, you
must notify us in writing and send us the card if you wish to cancel
your account. Your failure to return the card within five business
days of the effective date of the amendment, or your use of the
card thereafter, will indicate your agreement to the amendments.
To the extent permitted by law, amendments may apply to your
existing account balance as well as future transactions.

Miscellaneous
A microfilm or other photographic copy of any sales slip or similar
form showing a purchase, credit voucher, or cash advance order,
as well as any electronic data made on the basis of the card,
will establish the amount you owe us. You agree to reimburse
us for any costs that we incur in providing you with microfilm
or photographic copies of any sales slip; cash advance order,
credit voucher, or similar form including electronic data that is not
required to be provided to you by law. You agree to give us at least
10 business days prior notice of any change in your mailing
address. You also agree to notify us immediately in writing if you
change your name, place of employment, or home address.

11

Your billing rights:
Keep this document for future use
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.
What to do if you find a mistake on your statement
If you think there is an error on your statement, write to us at:
UNFCU
Court Square Place, 24-01 44th Road
Long Island City, NY 11101, USA
Attention: Card Services Department
Or email us at: email@unfcu.com
In your letter, or email, please include the following information:
• Account information: Your name, member number, and/or
account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe
it is a mistake.
You must contact us:
• Within 60 calendar days after we sent the first statement on
which the problem or error appeared.
• At least three business days before an automated payment
is scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing or via email.
You may call us, but if you do we are not required to investigate
any potential errors and you may have to pay the amount in
question.
What will happen after we receive your letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report
you as delinquent on that amount.
• The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

12

Visa credit card agreement

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent,
and we must let those organizations know when the matter has
been settled between us.
If we do not follow all of the rules above, you do not have to
pay the first $50.00 of the amount you question even if your
bill is correct.
Your rights if you are dissatisfied with your credit card
purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not
to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
2. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing or via email at:
UNFCU
Court Square Place, 24-01 44th Road
Long Island City, NY 11101, USA
Attention: Card Services Department
email@unfcu.com
While we investigate, the same rules apply to the disputed amount
as discussed above. After we finish our investigation, we will inform
you of our decision. At that point, if we determine that you owe an
amount and you do not pay, we may report you as delinquent.

13

Annual percentage rate (APR)
For new Visa accounts, an introductory APR will be established
on the date your account is opened and remain in effect for the
next six billing cycles. After your sixth billing cycle, your APR is
subject to change based on the Prime Rate as published in
The Wall Street Journal on the last day of the preceding month plus
a margin. If there is more than one Prime Rate published for
the last day of the month, we will use the highest one published.
For Visa Azure cards, the margin that is used to determine your
APR is 7.65%. For Visa Elite cards, the margin that is used to
determine your APR is 6.65%. For current rates, please visit
www.unfcu.org.

Annual fee
For Visa Azure credit card accounts, there is no annual fee. For
Visa Elite accounts, there is an annual fee of $50.00. The annual
fee will be posted to your account on your first billing cycle and
on each subsequent 12 month anniversary of your first billing
cycle. The annual fee will be posted to your account balance and
be subject to finance charges. UNFCU does not charge a fee for
issuing your Visa card. However, for any Visa account in which a
credit card, whether issued in the name of the account holder
or an authorized user, has been replaced two times, there is a
re-issuance fee of $20.00 for each subsequent replacement.

ATM safety
Please take appropriate precautions when using ATMs. For tips
on ATM safety, see your UNFCU Membership and Accounts
agreement.
TM

Priority Pass

Select use and limitations

Visa Elite credit cardholders who are 21 years of age or older may
be issued a Priority Pass Select card. The fee for visiting a Priority
Pass Select lounge is determined by Priority Pass Select, and will
be charged to your UNFCU Visa Elite credit card. This transaction
will be posted as a debit to the purchase balance and is subject to
finance charges. When you use your UNFCU Visa Elite credit card to
purchase airline tickets, UNFCU will pay for up to five Priority Pass
Select visits per year, per Visa Elite account. After the first five visits,
a lounge visit fee of $32.00 per person, per visit will be charged to
your UNFCU Visa Elite credit card. Annual membership for additional

14

Visa credit card agreement

Priority Pass Select cards on your UNFCU Visa Elite credit card is free.
Unused lounge visits expire each year and do not carry over to future
years. Lost or stolen Priority Pass Select cards must be immediately
reported to Priority Pass Select by calling 1-800-352-2834 within
within the US/Canada or Mexico. Outside the USA, please call
1-972-735-0536. Priority Pass Select airport lounge locations,
prices, and terms and conditions are subject to change without
notice. Please visit www.prioritypass.com for current locations
and information.

Visa credit card rewards program limitations
UNFCU provides a Visa rewards program which cardholders
can enjoy by redeeming the reward points accumulated for
purchases made with the Visa credit card. Visa reward points
are not accumulated for cash advances, convenience checks,
or balance transfers. Visa reward points or credits may have
no monetary value and may only be used as specified on the
credit card rewards website, accessible through Digital Banking.
You understand and agree that any rewards program or credits
will be forfeited immediately upon closure of the account by
you or us and may also be forfeited if you are in default. Reward
points are subject to expiration after which time they are
forfeited. The expiration date will be disclosed on your monthly
statement. Forfeited points will not be reinstated. We may,
at any time and subject to applicable law, change any term
or condition, or add any term or condition, to any credit card
rewards program without notice to you. To redeem or learn more
about the rewards program benefits, log in to Digital Banking.

15

Contact Us
Contact a member service representative for assistance with
any of your financial requests.

Email: Send your request to email@unfcu.com.
Telephone 1: Call +1 347-686-6000 or use a toll free number from
international locations listed on www.unfcu.org/tollfree.

WebChat: Instantly communicate with a member service
representative by clicking on the UNFCU WebChat link located
online at www.unfcu.org/contact..

Facsimile: +1 347-686-6400
Postal mail:
United Nations Federal Credit Union
Court Square Place, 24-01 44th Road
Long Island City, NY 11101, USA
Attention: Member Directed Services
Telephone numbers are subject to change without prior notice.
For a complete up-to-date listing, visit www.unfcu.org.

1

Visit UNFCU:
Please go to www.unfcu.org for the addresses and hours of
operations for each of our locations.
We have branches in the US:
• New York City
• Washington, DC
We have representative offices in Europe and Africa:
•
•
•
•
•

Entebbe, Uganda
Geneva, Switzerland
Nairobi, Kenya
Rome, Italy
Vienna, Austria

serving the people who serve the world ®

United Nations Federal Credit Union
Court Square Place, 24-01 44th Road
Long Island City, NY 11101, USA
+1 347-686-6000
www.unfcu.org
email@unfcu.com
© 2020 UNFCU and ‘serving the people who serve the world’
are registered marks of United Nations Federal Credit Union.
All rights reserved. 01/2020
G-13915

UNFCU Cardholder Agreement

